<html>
<title> - A REVIEW OF U.S. INTERNATIONAL EFFORTS TO SECURE RADIOLOGICAL MATERIALS</title>
<body><pre>[Senate Hearing 110-95]
[From the U.S. Government Printing Office]


f                                                         S. Hrg. 110-95
 
A REVIEW OF U.S. INTERNATIONAL EFFORTS TO SECURE RADIOLOGICAL MATERIALS

=======================================================================



                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                THE FEDERAL WORKFORCE, AND THE DISTRICT
                        OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 13, 2007

                               __________

        Available via http://www.access.gpo.gov/congress/senate

                               __________

                       Printed for the use of the
       Committee on Homeland Security and Governmental Affairs 




                     U.S. GOVERNMENT PRINTING OFFICE

34-410 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                          DISTRICT OF COLUMBIA

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
MARY L. LANDRIEU, Louisiana          JOHN WARNER, Virginia

                   Richard J. Kessler, Staff Director
             Jennifer A. Hemingway, Minority Staff Director
                      Emily Marthaler, Chief Clerk 


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     2
    Senator Carper...............................................    23

                               WITNESSES
                        Tuesday, March 13, 2007

Richard J.K. Stratford, Director, Office of Nuclear Energy, 
  Safety, and Security, U.S. Department of State.................     5
Andrew Bieniawski, Assistant Deputy Administrator, Office of 
  Global Threat Reduction, National Nuclear Security 
  Administration, U.S. Department of Energy......................     6
Janice Dunn Lee, Director, Office of International Programs, U.S. 
  Nuclear Regulatory Commission..................................     8
Gene Aloise, Director, National Resources and Environment, U.S. 
  Government Accountability Office...............................     9
Brian Dodd, President, Health Physics Society....................    17
Charles D. Ferguson, Fellow for Science and Technology, Council 
  on Foreign Relations...........................................    19
Joel O. Lubenau, Certified Health Physicist......................    21

                     Alphabetical List of Witnesses

Aloise, Gene:
    Testimony....................................................     9
    Prepared statement...........................................    54
Bieniawski, Andrew:
    Testimony....................................................     6
    Prepared statement...........................................    38
Dodd, Brian:
    Testimony....................................................    17
    Prepared statement...........................................    69
Dunn Lee, Janice:
    Testimony....................................................     8
    Prepared statement...........................................    45
Ferguson, Charles D.:
    Testimony....................................................    19
    Prepared statement...........................................    74
Lubenau, Joel O.:
    Testimony....................................................    21
    Prepared statement...........................................    80
Stratford, Richard J.K.:
    Testimony....................................................     5
    Prepared statement...........................................    29

                                APPENDIX

Briefing Memorandum..............................................    89
International Atomic Energy Agency, prepared statement...........    99
Responses to questions submitted for the Record from:
    Mr. Stratford................................................   138
    Mr. Bieniawski...............................................   143
    Ms. Dunn Lee.................................................   150
    Mr. Aloise...................................................   153
    Mr. Dodd.....................................................   155
    Mr. Ferguson.................................................   156


A REVIEW OF U.S. INTERNATIONAL EFFORTS TO SECURE RADIOLOGICAL MATERIALS

                              ----------                              


                        TUESDAY, MARCH 13, 2007

                                   U.S. Senate,    
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:36 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka, Carper, and Voinovich.

              OPENING STATEMENT OF CHAIRMAN AKAKA

    Chairman Akaka. The Subcommittee on Oversight of Government 
Management, the Federal Workforce, and the District of Columbia 
will come to order.
    I called this hearing of the Subcommittee on Oversight of 
Government Management, the Federal Workforce, and the District 
of Columbia to review the U.S. international efforts to secure 
radiological materials, and we look forward to examining 
activities by the Department of Energy and the Nuclear 
Regulatory Commission to help secure high-risk radioactive 
sources worldwide, both bilaterally and in cooperation with the 
International Atomic Energy Agency (IAEA). We will also hear 
from the Health Physics Society about its work under the 
Radiation Safety Without Borders program. I would like to 
request unanimous consent to submit my written statement into 
the record, and I would also like unanimous consent to submit a 
written statement provided by the IAEA and an article by the 
former head of the IAEA's program to secure radioactive 
sources, Dr. Abel Gonzalez, into the record.\1\
---------------------------------------------------------------------------
    \1\ The information from IAEA submitted by Senator Akaka appears in 
the Appendix on page 101.
---------------------------------------------------------------------------
    Our hearing seeks to address why funds to control high-risk 
radioactive sources are being cut out while interest by al 
Qaeda and other terrorist organizations in stealing them and 
making them into radiological dispersion devices, commonly 
known as ``dirty bombs,'' is increasing, not decreasing. I 
would like to lay out a scenario that illustrates my deep 
concern about these cuts. On March 28, 2006, the Government 
Accountability Office testified before the Permanent 
Subcommittee on Investigations that GAO had conducted an 
undercover operation to purchase two radioactive sources and 
transport them across two U.S. borders. I was disturbed to 
learn that GAO was able to use counterfeit documentation 
modeled after those found on the Internet and counterfeit bills 
of lading to purchase over the phone one of the most common 
radioisotopes used in industry.
    It was easy for GAO to get enough radioactive source 
material to manufacture a dirty bomb. These radioactive sources 
should concern all Americans, but what worries me more is how 
easy it is and it would be to conduct the very same operation 
in another country, one with fewer resources than we have to 
adequately control radioactive sources. What if this was an al 
Qaeda operative or Chechen rebel trying to obtain a source to 
use in a dirty bomb in the United States rather than a GAO 
investigation?
    Unfortunately, this is a very real possibility. There are 
documented efforts of terrorists trying to get these sources. 
Osama bin Laden has explicitly stated that acquisition of a 
nuclear weapon is a ``religious duty.'' The IAEA has documented 
516 confirmed cases of trafficking or loss of highly 
radioactive sources. In contrast, the IAEA has documented 224 
incidents involving nuclear materials, most of which involve 
natural or depleted uranium.
    A terrorist has three choice targets:
    First on the terrorist wish list is plutonium or highly 
enriched uranium; with this, a terrorist can make a nuclear 
bomb. Second on his wish list is nuclear material for an 
improvised nuclear device, or IND. Third is a radioactive 
source.
    The first two are hard to obtain; the third is widely 
available. It can be found in every hospital in the world with 
an X-ray machine. This is why I have convened this hearing 
today, and this is why I have asked GAO to examine this issue 
four times over the last 4 years. The threat that an al Qaeda 
operative could steal a radioactive source from a hospital, for 
example, is very real. This is the bottom line: It is far 
easier to get a radioactive source than it is to steal highly 
enriched uranium or plutonium and detonate it in a nuclear 
weapon or improvised nuclear device. Detection equipment, as 
the GAO undercover operation revealed, does not deter anyone 
from acquiring material and transporting it. But detection is 
the last line of defense, not the first.
    And that is why I oppose the Administration's proposed 
funding cuts to DOE to help ensure that these high-risk sources 
do not find their way into the United States. Nor has the 
Administration given the NRC enough funding to help strengthen 
regulatory control of these sources in other countries. The job 
is not finished and the threat is growing. Yet funding is being 
cut. The question is why? The purpose of this hearing is to 
answer that critical question.
    I want to thank our witnesses for being here today to 
discuss this critical issue.
    I will now turn to my good friend, Senator Voinovich, for 
his statement.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Senator Akaka. I thank the 
witnesses for being here.
    Since 2002, over $143 million has been appropriated for the 
Department of Energy's (DOE's) International Radiological 
Threat Reduction Program to help other countries, including the 
Soviet Union, Indonesia, Iraq, and Mexico, secure dangerous 
radiological sources.
    Today we are holding this hearing to ensure that DOE and 
the other key responsible agencies, including the State 
Department and the NRC, are adequately performing their roles.
    In a tight Federal budget with demands for homeland 
security funding that far exceed the capacity of this Nation to 
furnish it, it is discouraging to learn that coordination, both 
within DOE and with other key agencies, is lacking. Also, it is 
frustrating to learn that DOE has consistently carried over a 
large balance of unspent and unobligated funds--that is 
something that you all ought to be concerned about--while the 
NRC's biggest challenge has been identifying adequate and 
reliable funding support from other agencies.
    In a report being released at today's hearing, the 
Government Accountability Office found that DOE did not 
transfer $5 million from its fiscal year 2004 appropriation to 
the NRC for strengthening international regulatory controls 
over radiological sources, despite a Senate Appropriations 
Committee report directing DOE to get that done.
    Now, Senator Akaka and I know that the Nuclear Regulatory 
Commission is paid for 10 percent by the Federal Government and 
90 percent by the people that are in the nuclear industry. So 
this is an extra task beyond what is in their budget, so this 
money has got to come over from the DOE.
    In addition, gaps in information sharing between DOE and 
the International Atomic Energy Agency have impeded DOE's 
ability to target the most vulnerable sites in the 
International Atomic Energy Agency member States for security 
improvements. We have to work with the International Atomic 
Energy Agency.
    One of the chief concerns identified by GAO is that many 
dangerous radiological sources remain unsecured worldwide and 
that DOE may have focused limited program funding and resources 
on securing lower-risk, lower-priority facilities. DOE has not 
given sufficient attention to developing long-term 
sustainability plans to protect investments in security 
upgrades, and without such plans, investments to improve the 
security of radiological sources in many countries may be 
ineffective.
    We have been fortunate that no dirty bombs have been 
detonated by terrorists to date. However, confirmed reports of 
illicit trafficking in radiological materials has increased in 
recent years, as Senator Akaka outlined. Concerns have been 
raised about the potential for illicit use.
    My colleagues know that I have been a consistent advocate 
for managing risk and setting priorities in our homeland 
security policy. I have often warned that we cannot secure 
everything, and we would bankrupt our country if we tried. 
However, I believe the scenario of terrorist use of a dirty 
bomb has a sufficiently grave combination of threat, 
vulnerability, and consequences to justify a serious focus on 
this issue.
    A radiological dirty bomb could result in fatalities and 
serious health consequences as well as significant economic, 
psychological, and social disruption associated with the 
evacuation and subsequent cleanup of the contaminated area. The 
consequences resulting from a dirty bomb would be no less than 
that of an anthrax attack like we had 5 years ago that took 
five lives nationwide, requiring the testing of thousands of 
mailroom employees throughout the United States, and shuttered 
buildings around the city for months. Have we forgotten that? 
It is like it never happened. I remember it well because I was 
out of my office for about 3 months.
    Concerns about Federal agencies having to do a better job 
of prioritizing and coordinating with each other and securing 
domestic radiological materials arose soon after the terrorist 
attacks of September 11. That is why Senator Carper and I, as 
Chairman and Ranking Member of the Clean Air and Nuclear Safety 
Subcommittee of the Environment and Public Works Committee, 
sponsored the nuclear security provisions in the Energy Policy 
Act of 2005. Among other things, those provisions required the 
NRC to establish a nationwide mandatory tracking system for the 
high-risk radioactive sources; two, establish additional 
controls on the import and export of radioactive sources, 
including background check requirements for individuals 
involved in import and exports shipments; and, three, establish 
a new interagency Task Force on Radiation Source Protection and 
Security.
    Mr. Chairman, perhaps we need to consider expanding some of 
these provisions, where appropriate, to help responsible 
agencies do a better job in securing dangerous radiological 
materials, both domestically and abroad. I am also intrigued by 
the GAO's recommendation to provide NRC with the authority and 
direct appropriation to assist foreign regulators in developing 
regulatory infrastructure in lieu of providing funds from DOE. 
That is a more direct way of getting it done.
    I do understand that the international dimension of this 
program has added significant challenges, but clearly we cannot 
and should not do this alone. I would like to better understand 
the difficulties each agency is having in dealing with your 
international counterparts, including the IAEA, both in funding 
and programmatic cooperation.
    Thank you, Mr. Chairman, for having this hearing today.
    Chairman Akaka. Thank you very much, my friend and Ranking 
Member, Senator Voinovich.
    And now I welcome our guests. They are Richard Stratford, 
Director, Office of Nuclear Energy, Safety, and Security, 
Department of State; Andrew Bieniawski, Associate Deputy 
Administrator, Office of Global Threat Reduction, National 
Nuclear Security Administration; Janice Dunn Lee, Director, 
Office of International Programs, U.S. Nuclear Regulatory 
Commission; and Eugene Aloise, Director, Natural Resources and 
Environment, Government Accountability Office.
    It is the custom of this Subcommittee to swear in all 
witnesses, and I would like to ask you all to stand and raise 
your right hand. Do you solemnly swear that the testimony you 
are about to give this Subcommittee is the truth, the whole 
truth, and nothing but the truth, so help you, God?
    Mr. Stratford. I do.
    Mr. Bieniawski. I do.
    Ms. Dunn Lee. I do.
    Mr. Aloise. I do.
    Chairman Akaka. Thank you. To all of you, we will include 
your full statements in the record, and I would like you, Mr. 
Stratford, to proceed with your statement.

  TESTIMONY OF RICHARD J.K. STRATFORD,\1\ DIRECTOR, OFFICE OF 
 NUCLEAR ENERGY, SAFETY, AND SECURITY, U.S. DEPARTMENT OF STATE

    Mr. Stratford. Thank you, Mr. Chairman. Mr. Chairman and 
Senator Voinovich, thank you for the opportunity to speak to 
the topic of U.S. international efforts on radiological 
security and to explain the role of the Department of State in 
this important area. Radioactive sources are used throughout 
the world for numerous beneficial purposes, but they can also 
have malevolent uses. Ensuring access to these valuable 
technologies, while also ensuring the safe and secure 
management of radioactive sources, requires a balanced and a 
multilateral approach.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stratford appears in the Appendix 
on page 29.
---------------------------------------------------------------------------
    The principal role of the Department of State in U.S. 
international efforts to secure radioactive material is the 
development and direction of U.S. foreign policy and the 
oversight of U.S. Government activities abroad.
    The missions and activities of the Department of Energy and 
the Nuclear Regulatory Commission are complementary and 
essential for implementing U.S. policy objectives. DOE has the 
resources and technical expertise for implementing on-the-
ground radiological security work in foreign countries. NRC 
maintains the technical and legal expertise related to the 
licensing and control of radioactive sources. And, of course, 
State provides diplomatic support to the technical agencies, 
where needed.
    The Department of State has also taken a leadership role on 
developing, strengthening, and building support for 
international standards and instruments for the management of 
radioactive sources. The IAEA Code of Conduct on the Safety and 
Security of Radioactive Sources was revised in 2003 to 
incorporate post-September 11 security concerns. In 2004, the 
IAEA Guidance on the Import and Export of Radioactive Sources 
was developed and approved.
    Together, the Code of Conduct and the Guidance now 
represent the international benchmark for radiation protection 
authorities.
    The Department of State also supports and promotes IAEA 
programs that help member States evaluate and address gaps in 
their regulatory infrastructures. The Regulatory Authority 
Information System (RAIS), is a software platform which enables 
regulators to track radioactive sources, licenses, and 
qualifications of authorized users. Since 2003, the State 
Department has provided $1.4 million to the IAEA for training 
and for upgrading RAIS software.
    Mr. Chairman, I would also like to highlight the U.S. 
Government's important work in Iraq and Ukraine. Now, if you 
are following my short written statement, you will see that I 
am skipping over the phrase ``regionally in North America,'' 
because I am going to cut that paragraph at the end.
    With respect to Iraq, in 2004 the State Department led U.S. 
efforts to enhance radiological security in Iraq through the 
establishment of an effective regulatory authority to ensure a 
native capacity for locating and securing radioactive sources. 
The rapid standup of the Iraqi Radioactive Source Regulatory 
Authority, which was made possible by monies from the 
Department of State, maintained key search and recovery 
capabilities that were established during the Coalition 
Provisional Authority. Since that time, hundreds of missions to 
search for abandoned and vulnerable radioactive sources have 
been completed, including a recent sweep of Sadr City.
    Our Nonproliferation and Disarmament Fund (NDF) has also 
provided direct support to Ukraine to improve long-term 
security of high-risk radioactive sources through better 
accounting, training, and establishment of regional regulatory 
offices. The State Department considers the Ukraine project a 
success, and it was accomplished at about a quarter of the 
originally estimated cost.
    In closing, let me say that significant progress has been 
made by the United States to enhance control over radioactive 
sources around the world and to reduce the risk of their 
malicious use. This progress has been achieved through close 
coordination within the U.S. Government, but there is obviously 
more to be done. Continued success on international 
radiological security will require continued close 
collaboration among the key U.S. Government agencies in 
partnership with the international community.
    Thank you.
    Chairman Akaka. Thank you very much. Mr. Bieniawski.

      TESTIMONY OF ANDREW BIENIAWSKI,\1\ ASSISTANT DEPUTY 
  ADMINISTRATOR, OFFICE OF GLOBAL THREAT REDUCTION, NATIONAL 
   NUCLEAR SECURITY ADMINISTRATION, U.S. DEPARTMENT OF ENERGY

    Mr. Bieniawski. Thank you, Mr. Chairman and Senator 
Voinovich, for giving me the opportunity to testify on the 
Department of Energy's efforts to secure and recover 
vulnerable, high-risk radioactive sources outside the United 
States. At the very outset, Mr. Chairman, I would like to thank 
you for your continued interest and leadership on this very 
important issue of securing vulnerable radiological sources.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bieniawski appears in the 
Appendix on page 38.
---------------------------------------------------------------------------
    I am pleased to report to you that, since the inception of 
our program back in 2002, the Department of Energy's 
International Radiological Threat Reduction Program has 
completed security upgrades at more than 500 sites in over 40 
countries around the world. Radioactive sources such as cobalt, 
cesium, strontium, and americium, which are used worldwide for 
many legitimate purposes, could be exploited by terrorists to 
produce a radiological dispersion device, or dirty bomb.
    Our program's primary objectives are threefold: First, to 
implement rapid physical security upgrades at vulnerable sites 
containing these sources; second, to locate, recover, and 
consolidate lost or abandoned high-risk sources; and, third, to 
support the development of the infrastructure necessary to 
sustain these security enhancements that we are doing.
    Now, the intent of terrorists to acquire radioactive 
materials for use in an RDD does pose a significant risk to the 
American public and must be addressed. One of the many lessons 
learned from the attacks of September 11 is that some of the 
most common tools used in our daily lives, such as commercial 
airliners, can and will be used by terrorists in an attempt to 
wreak havoc on the United States. Should terrorists acquire and 
use these materials in an RDD, the psychological, physical, and 
economic impact could be significant.
    From various reports, we know that al Qaeda is known to be 
interested in acquiring the materials for a radiological 
weapon. We would add that in June 2005, Senator Lugar polled 
dozens of non-proliferation experts around the world, and the 
Lugar survey concluded that the probability of a radiological 
attack was twice as high as the probability of other WMD 
attacks using biological or nuclear materials. Therefore, given 
the reality of this situation, the Department of Energy, this 
Administration, and Congress have taken important steps to 
increase our radiological threat reduction efforts.
    So to address this threat, in 2004 the Department of Energy 
consolidated its radiological threat reduction efforts into a 
single central office called the Global Threat Reduction 
Initiative. GTRI is a vital part of the President's National 
Security Strategy, and GTRI directly addresses and is 
implementing some of the recommendations of the bipartisan 9/11 
Commission.
    The DOE and the National Nuclear Security Administration 
are committed to securing and removing vulnerable sources 
around the world. Over the past several years, we have 
significantly accelerated our efforts and secured more than 500 
vulnerable radiological sources since 2002. In fact, I think it 
is very important to note that since our efforts first began 
back in 2002, we have accelerated these efforts each and every 
year. So each and every year we are doing more and more to 
address this very serious radiological threat.
    As of January 2007, DOE has spent approximately $120 
million to secure these sources. This demonstrates a strong 
commitment and, from our perspective, a successful program that 
produces tangible results.
    Now, in terms of the GAO report, we are pleased that in the 
GAO report it was recognized that DOE has achieved noteworthy 
accomplishments by improving the security of radiological 
sources at hundreds of sites. The GAO report also highlighted 
several other key accomplishments under this program, and I 
would like to recap several of them.
    First, it noted that we had removed more than 5,000 curies 
of radioactive cobalt and cesium from war-torn Chechnya. We 
have removed nearly 1,000 high-risk sources from Iraq. We have 
created secure storage facilities in Uzbekistan and Georgia. We 
have removed or secured, in cooperation with our international 
partners, more than 30 percent of these high-powered RTGs in 
Russia. We have improved coordination with the Department of 
State and with the Nuclear Regulatory Commission. We have 
improved coordination with the IAEA and several donor States to 
implement this program. These are excerpts straight out of the 
GAO report. And we have also developed successful bilateral 
cooperation.
    In closing, I would like to conclude by saying that we 
welcome this opportunity to focus attention on this very 
important and pressing issue. Thanks to your support, we have 
made significant progress to date to reduce the likelihood that 
terrorists will be able to acquire radiological sources. 
However, we fully agree, Mr. Chairman, that much work remains 
to be done, and we look forward to working closely with you in 
the future to continue to accelerate these efforts. Thank you.
    Chairman Akaka. Thank you very much, Mr. Bieniawski. Ms. 
Dunn Lee.

     TESTIMONY OF JANICE DUNN LEE,\1\ DIRECTOR, OFFICE OF 
   INTERNATIONAL PROGRAMS, U.S. NUCLEAR REGULATORY COMMISSION

    Ms. Dunn Lee. Thank you, Mr. Chairman and Ranking Member 
Voinovich. My name is Janice Dunn Lee. I am the Director of the 
Office of International Programs at the U.S. Nuclear Regulatory 
Commission. My office oversees and supports the NRC technical 
staff which participates in international assistance and 
cooperation activities. A high priority among these activities 
are efforts to create effective, sustainable regulatory 
oversight of radioactive sources worldwide.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Dunn Lee appears in the Appendix 
on page 45.
---------------------------------------------------------------------------
    I would like to join my colleagues in thanking you for 
giving us this opportunity today to discuss NRC's international 
efforts to enhance security of risk-significant radioactive 
sources. As requested, we provided prepared testimony for the 
record that describes in detail NRC's activities in this area. 
At this time I will highlight key elements of this testimony, 
including addressing the recommendations contained in the 
recently released GAO report, which is the basis for this 
hearing.
    The Commission fully supports the recommendation made in 
the GAO report that Congress consider providing NRC with a 
direct appropriation to assist foreign nations in their 
regulatory oversight of risk-significant radioactive sources. 
NRC believes that the risk that some radioactive materials 
might be put to malicious use is still sufficient to warrant 
continued provision of international assistance.
    The NRC can be most effective in supporting the effort to 
control sources by having appropriated funds to implement its 
programs and to participate in the combination of bilateral and 
multilateral regulatory assistance efforts to continue to lower 
this risk.
    With effective planning and project management, continued 
reductions in risk can be achieved through modest investments 
in U.S. taxpayer funds. For example, an increase in non-fee-
based funding for NRC, estimated at $2 to $3 million per year 
over the next few years, would allow NRC to expand ongoing 
efforts to create sustainable, effective national regulatory 
programs, integrating safety and security controls over these 
widely used sources.
    As our written testimony reflects, NRC believes that 
international efforts to assist foreign nations in controlling 
risk-significant sources must be based on the Code of Conduct 
on the Safety and Security of Radioactive Sources. During 
development of the code, the NRC ensured that it was 
appropriately risk-informed, effective, realistic, and 
verifiable. Over a 2-year period, NRC led the world in 
implementing the code by revising our domestic regulatory 
programs, establishing a registry to meet the intent of the 
code, developing a National Source Tracking System, and 
enhancing import-export restrictions for risk-significant 
sources.
    Our international activities have paralleled those domestic 
efforts, primarily focusing on helping other countries to adopt 
and implement the code. Should Congress provide the modest 
increase in non-fee-based funding needed, these activities 
could judiciously be expanded.
    Specifically in the multilateral arena, NRC would work 
closely with the International Atomic Energy Agency to identify 
how best to support IAEA's efforts to assist other countries to 
implement the code. The NRC could also consider, for example, 
stationing experts at the IAEA to strengthen and better 
coordinate regulatory assistance activities and directly 
funding high-priority IAEA regulatory-strengthening efforts.
    In the bilateral area, NRC could expand upon the success 
achieved and the experience gained working with our regulatory 
counterparts in Armenia, Georgia, and Kazakhstan. The NRC has 
reviewed these countries' laws, which now authorize the 
regulators to implement the guidance of the code and include 
the ability to enforce regulations. NRC has also provided 
training for inspectors and assisted in the development of 
national registries of radioactive sources. With additional 
funding, NRC could consider work with our regulatory 
counterparts in the States of the former Soviet Union, similar 
to the work already achieved in Armenia and ongoing in Georgia 
and Azerbaijan.
    We would continue to devote a significant portion of 
available funding, typically over 60 percent, to utilize in-
country technical expertise and resources needed to implement 
these projects. More broadly, the NRC would also consider 
working directly with regulatory authorities of key countries 
which import U.S.-manufactured sources to ensure that the 
highest resources are used safely and securely.
    Mr. Chairman and Mr. Voinovich, this concludes my 
statement. I would be happy to answer any questions you may 
have. Thank you.
    Chairman Akaka. Thank you very much, Ms. Dunn Lee. Mr. 
Aloise.

 TESTIMONY OF GENE ALOISE,\1\ DIRECTOR, NATURAL RESOURCES AND 
       ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Aloise. Thank you. Mr. Chairman and Senator Voinovich, 
I am pleased to be here today to discuss our report, which 
addresses the progress DOE has made in securing high-risk 
sources in other countries.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Aloise appears in the Appendix on 
page 54.
---------------------------------------------------------------------------
    Since the program's start in 2002, DOE has spent over $100 
million to secure hundreds of sites in over 40 countries. 
However, some of the highest-risk and most dangerous sources 
remain unsecured. Specifically, 16 of 20 nuclear waste storage 
sites across Russia and Ukraine remain unsecured, and more than 
700 portable generators, possibly containing the largest 
unsecured quantity of radioactivity in the world, remain 
operational or abandoned in Russia and are vulnerable to theft 
or misuse.
    In 2003, DOE decided to expand the program's scope. In our 
view, this is where the program detoured from its original 
mission to secure the highest-risk and most dangerous sources. 
The program expanded to countries outside the former Soviet 
Union. It also expanded the types of sites that required 
security upgrades to include hospitals and oncology clinics. 
The sources in these medical facilities pose much less of a 
threat to our national security interests than higher-priority 
sources such as the portable generators and waste storage 
facilities. However, as of September 30 of last year, almost 70 
percent of all sites DOE secured were medical facilities.
    While we understand that many of the portable generators 
cannot yet be removed, removing as many as possible or securing 
those that cannot be removed should be a critical component of 
DOE's program.
    DOE has also experienced numerous problems and challenges 
implementing its program, including: some high-risk countries 
have been unwilling to cooperate in implementing security 
upgrades; some security upgrades have been poorly done and 
required additional funding to fix; and some countries lack 
adequately trained and equipped guard forces to respond to site 
alarms.
    Furthermore, DOE has not developed a long-term plan to 
sustain the upgrades it has installed. In fact, program 
officials told us that they believed upgrades would only be 
sustained in about 25 percent of the countries receiving 
assistance.
    Regarding coordination, although it has improved among DOE, 
NRC, and the State Department, it has been inconsistent and 
there is no comprehensive governmentwide approach to securing 
sources overseas. In addition, we found that DOE needs to 
better coordinate program activities within this program, as 
well as with other related DOE programs, to leverage financial 
resources.
    We believe that DOE's reorganization of its nuclear and 
radiological threat reduction efforts is a step in the right 
direction. However, there are still significant management 
issues that need to be resolved and addressed. Our report makes 
several recommendations designed to improve the DOE's program.
    Mr. Chairman, that concludes my remarks. I would be happy 
to respond to any questions you or Senator Voinovich might 
have.
    Chairman Akaka. Thank you very much, Mr. Aloise.
    Mr. Bieniawski, you mentioned in your statement that there 
have been 500 sites DOE secured, which of those could be 
considered high priority?
    Mr. Bieniawski. Yes, Mr. Chairman. All the sites that we 
have secured are considered high priority and contain 
vulnerable sources. Some of those are the high-powered RTGs in 
the Russian Federation. Some of those are medical sources that 
are vulnerable and exceed our minimum threshold of 1,000 
curies. We believe you have to have a comprehensive approach 
and secure a range of sources, but all of those that we have 
secured to date are the highest priority.
    Chairman Akaka. Mr. Bieniawski, DOE claims a number of 
successes in securing, as you have said, radioactive sources 
throughout the world. But as you know, there remain countless 
sites with sources that have not been secured, and terrorists 
are even more eager to steal them.
    Why then has DOE steadily reduced funding for this 
activity?
    Mr. Bieniawski. Mr. Chairman, each and every year under 
this program, as I said in my oral testimony, we have 
accelerated our efforts. The first year, back in 2003, we just 
did eight sites. Then we did an additional 61 sites, then an 
additional 174 sites, and then last year an additional 257 
sites. So we have been accelerating the program, and in order 
to continue the program, you are absolutely right, we need 
funds to make sure that we can accelerate.
    What I would like to note is that, regarding the fiscal 
year 2008 budget request, in addition to the $6 million that we 
requested in 2008, there is currently a supplemental request 
before Congress for a fiscal year 2008 supplemental for $20 
million specifically for this program.
    In terms of what that will buy if Congress authorized an 
additional $20 million for our program, we will directly 
implement several of the recommendations from the GAO that you 
just heard about. We will recover an additional 45 of these 
high-powered RTGs in Russia. We will secure up to 10 
radiological sites in China. We will secure an additional seven 
radiological sites in Pakistan. We will secure five vulnerable 
sites in Lebanon, three additional sites in Egypt, 10 sites in 
Turkey, and three additional sites in Kenya.
    So if the supplemental is funded, that would bring our 
funding level up in fiscal year 2008 to a total of $26 million 
for this program and enable us to secure at least an additional 
85 vulnerable sources.
    Chairman Akaka. Thank you.
    Mr. Aloise, will the recent reorganization of DOE's program 
have a positive impact on DOE efforts to assist other countries 
to secure radiological sources? And if not, why not?
    Mr. Aloise. Well, we think it is a step in the right 
direction, but it is too early to tell. We think the proof of 
whether it will be or not is if the program refocuses on 
securing the highest-priority sources, not just numbers of 
sources but the highest-priority sources, and not just numbers 
of sites but the highest-priority sites. Those include the 
generators we have talked about and waste storage sites.
    Chairman Akaka. Mr. Bieniawski, would you please explain 
your rationale for not providing NRC with the $5 million as 
directed by the Senate Appropriations Committee report?
    Mr. Bieniawski. Yes, sir. The detail on that situation is 
that back in fiscal year 2004--this was the fiscal year 2004 
budget process--the $5 million proposed transfer was only in 
the Senate report. There was no mention of this $5 million 
transfer in the House report, so, therefore, it was an issue 
that had to be resolved in the conference negotiations for the 
final fiscal year 2004 budget process.
    During the conference negotiations, the House did not 
support the Senate position, and the Senate receded to the 
House. And, therefore, this was not in the final report. The 
Senate gave up on their initial request and, therefore, we were 
specifically directed not to transfer the $5 million to NRC. We 
checked at that time with our appropriators, and they confirmed 
that because this was not, as you know, in the final report, 
there was no requirement to transfer those funds and, 
therefore, we did not do so.
    Chairman Akaka. I understand, Mr. Bieniawski, the rationale 
you have provided. However, I understand that DOE and the NRC 
had initially come to an agreement on providing the funding to 
NRC. Do you know why the agreement was not implemented?
    Mr. Bieniawski. To clarify, NRC and DOE did have 
discussions regarding the possible transfer of DOE funds to NRC 
for international radiological security cooperation. However, 
no final agreement was reached with NRC due to the fact that 
since the specific NRC-related activities would be periodic and 
intermittent in nature, NRC could not dedicate full-time staff 
to support this effort and therefore it was mutually agreed not 
to continue further discussions on this matter.
    Chairman Akaka. Ms. Dunn Lee, would you like to comment on 
that?
    Ms. Dunn Lee. I would be pleased to, Mr. Chairman.
    DOE and NRC have a mutual common goal of securing 
radioactive sources from potential theft and diversion. 
However, we come at these goals with different approaches. And 
when you put money in one agency to manage a program, I think 
there is a natural tendency to use money to support that 
agency's approach.
    When funds are limited to begin with, the pot of money 
there really needs to be managed very carefully. And while we 
had a very good dialogue going on with DOE at the time, it was 
not workable because of the small streams of money that came in 
and that came in very prescriptively. We were asked to support 
work with specific tasks in specific countries, given specific 
time frames, with very little flexibility, and it is very 
inconsistent with our regulatory approach. And, therefore, we 
were unable to support some of the items that DOE had come up 
with, so it was a little bit unfortunate in that regard that we 
were not able to work out a mutual program to support our 
mutual goal, which is to secure these radioactive sources.
    Chairman Akaka. Thank you.
    Mr. Aloise, GAO found that DOE does not have a strategy for 
sustaining its security upgrades. Did you determine why this is 
the case?
    Mr. Aloise. Well, they have a 3-year warranty on their 
upgrades, and DOE has talked about that a lot. But as we got 
more into the program, we found out they had nothing beyond 
that to sustain these upgrades. And a lot of these sites that 
they have upgraded are private hospitals or oncology clinics. 
Moreover, many of these sites are in countries that are very 
strapped for cash, and it is not clear that the countries are 
going to be able to sustain the upgrades. So it is important 
that DOE develop a plan to do that, and as of yet, a long-term 
plan has not been developed.
    Chairman Akaka. Mr. Bieniawski, would you want to comment 
on that?
    Mr. Bieniawski. Yes, sir. As Mr. Aloise said, we do have a 
short-term sustainability plan for 3 years where we provide 
maintenance over a 3-year period. We fully agree that we need 
to devote more attention to the long-term sustainability. Part 
of this is that if additional funds are made available through 
the supplemental, some of those funds can also be used to help 
us work to sustain this work in other countries.
    As a result of the GAO recommendation, we have set up an 
internal task force to look at the long-term sustainability. 
One of the things we do not want to do is just reinvent the 
wheel, and there is a lot of work that some of the other DOE 
programs have already done under our Material Protection 
Control and Accounting Program. So as part of this task force, 
we will be looking at what they have done, what can be applied 
to our upgrades, and we will be devoting more attention to this 
in the future.
    Chairman Akaka. Well, thank you very much for your 
responses.
    I would like to ask Senator Voinovich for his questions.
    Senator Voinovich. Do you all agree that, based on threat 
assessment, this is a problem that we should be very concerned 
about relative to some other things? Everybody is nodding their 
head. [Laughter.]
    If it is, why aren't we doing a better job? For example, 
Mr. Bieniawski, the GAO report cites a comment by senior DOE 
official who believed that there is still a significant amount 
of work to be done to secure radiological sources in the United 
States. What is DOE's current estimate of the number of high-
risk sources in this country that still need to be located and 
secured? If you can respond without disclosing sensitive 
information. And how does that compare with the number of 
sources outside of the United States?
    Mr. Bieniawski. My program, GTRI, has several sub-elements. 
It has both an international program, which is the focus of the 
GAO report, and then also a domestic program.
    To answer the last part of your question first, in terms of 
additional sources outside the United States that need to be 
secured, we estimate that there are approximately 3,300 high-
risk sources in other than high income economy countries that 
meet this minimum curie level of at least 1,000 curies that are 
near important U.S. strategic interests that need to be 
secured. So that is a number that we have surveyed, that we 
have good confidence in that number.
    In terms of the United States, what I would comment on and 
then see if the NRC would have additional comments, one of the 
programs we have under GTRI is securing what is called excess 
and unwanted sources here in the United States. These are 
sources that are no longer needed by industry. To date, we have 
recovered 14,000 of those sources.
    To answer your question specifically, we estimate that each 
year we need to recover around 2,000 to 2,500 that become 
excess each year and are no longer needed by industry. And what 
we do under this program, which is our domestic radiological 
program, is we go and remove them and secure them at Los 
Alamos.
    So that is how I would answer that, but NRC might have some 
additional information.
    Senator Voinovich. Well, Ms. Dunn Lee, one of the security 
provisions in the Energy Policy Act of 2005 that I cosponsored 
requires the NRC to develop a National Source Tracking System 
to help secure high-risk radiological sources in the country. 
What is the status of this program? You were just talking about 
looking at it, but how are you coordinating? Are you using 
DOE's information or are you using NRC's information? How does 
that work?
    Ms. Dunn Lee. Senator Voinovich, yes, the NRC has a 
responsibility for developing the National Source Tracking 
System, and we have met the deadline in the Energy Policy Act 
to promulgate regulations. The final rule, which requires 
licensees to report inventories and transactions of Category 1 
and 2 materials, was issued in November 2006.
    We expect the National Source Tracking System to be up and 
running--it is a big data system--by the end of 2008. In the 
meantime, we continue to use an interim database to meet its 
obligations for the registry under the requirements of the Code 
of Conduct.
    With regard to the recovery of orphan sources----
    Senator Voinovich. Is that the Code of Conduct of the 
International Atomic Energy Agency?
    Ms. Dunn Lee. Correct, yes, which recommends that each 
country have a national registry of these radioactive sources.
    With regard to the recovery of orphan sources, it is 
primarily a DOE program, and we work together in this effort, 
but I would have to defer to the Department of Energy with 
respect to the data on the numbers of orphan sources around. 
The National Source Tracking System tells you what sources are 
under the jurisdiction of licensees. These are the known 
sources. It does not really account for the abandoned and 
orphan sources.
    Senator Voinovich. OK. Are the abandoned and orphan sources 
the result of activity of people that have been regulated by 
the Nuclear Regulatory Commission?
    Mr. Bieniawski. Yes, the sources that are excess and 
unwanted are no longer needed by those licensees, and they go 
to a secure database, and they basically say that these sources 
are no longer needed and please have these sources removed 
because they are one step away from basically being orphaned or 
abandoned.
    Senator Voinovich. Your job is, as part of your Department, 
that when you have sources like this that are not used 
anymore----
    Mr. Bieniawski. Correct.
    Senator Voinovich [continuing]. Your job is to get rid of 
them?
    Mr. Bieniawski. Yes, sir.
    Senator Voinovich. I was just thinking about something that 
I have written to Secretary Bodman about. We have the tailings 
of uranium at the Piketon facility in Ohio, USEC does, so that 
is just laying out there.
    Mr. Bieniawski. Yes, sir.
    Senator Voinovich. And one of the things we want to do is 
see if DOE would be interested in removing the uranium from 
those tailings, which would make more uranium available and 
make it more likely that you could then get rid of it.
    Mr. Bieniawski. Yes, sir. These sources that we recover are 
what we call sealed sources that are no longer needed. They are 
not the in-use ones, but they are actually sealed sources that 
we can then pick up and remove to Los Alamos or our Nevada test 
site.
    Senator Voinovich. You are talking about nuclear materials, 
what about radiological sources in hospitals?
    Mr. Bieniawski. Well, some of these are from hospitals, but 
most of these are just licensed facilities that no longer need 
them.
    I think what you are getting at is what about all the 
sources that are still in use that are being used by hospitals, 
whether they are cobalt and cesium, and that is under the 
auspices of the NRC, to in-use sources.
    Senator Voinovich. GAO recommended Congress to authorize 
the NRC with direct authority, and a direct appropriation to 
help other countries develop regulatory infrastructure in lieu 
of providing funds to DOE and the State Department and then 
have these agencies reimburse NRC. I know from Ms. Lee's 
testimony that NRC supports this recommendation. I would like 
to get the State Department's and DOE's positions on this 
proposal.
    Would this step enhance or further complicate policy 
efforts and coordination?
    Mr. Stratford. Senator, I do not have specific guidance on 
that issue, but I do have a view. Thirty years ago, when I was 
a junior lawyer, I was a legal assistant to one of the first 
NRC commissioners for 3 years, from 1975 to 1978. I was very 
impressed then with what the NRC could do, and 30 years later, 
today they are the premier nuclear regulatory organization in 
the world. They have a lot to offer in terms of boosting safety 
culture overseas and making life safer and more secure for all 
of us.
    In my judgment, it is passing strange for the NRC to have 
to go from agency to agency with a tin cup asking for donations 
so that they can do the very things that the State Department 
would like them to do.
    So in my personal judgment, yes, I think it would make 
sense for the NRC to have an appropriation that they could use 
to help boost safety and security around the world.
    Senator Voinovich. So they would not have to rely on money 
coming from DOE. They would have the money there to do it 
either by a direct appropriation or a charge-back. I suspect 
they would rather have the money than the charge-back.
    Mr. Stratford. Just as a matter of personal management, 
some bureaus maintain all funds in the front office, and if you 
are an office director and you want something, you have to go 
ask for it.
    Our bureau does not do it that way. I have a budget. I have 
a travel budget. I have a training budget. And it is allotted 
to me, and it is my job to figure out how to get the job done 
within what they give me.
    So, from my point of view, it makes more sense to have NRC 
have a budget that they know what they can do with instead of 
having to go begging for money whenever something makes sense 
for them to do it.
    Senator Voinovich. So they would have the money to do the 
identification and do the tracking that they supposedly do here 
and work with other countries that do it.
    Mr. Stratford. And provide training.
    Senator Voinovich. And provide training on how to handle 
the stuff.
    Mr. Stratford. That is right.
    Senator Voinovich. And in this country, DOE would have the 
responsibility to take care of disposing of the stuff that is 
not being used anymore, basically. I mean, in those countries 
where we have radiological materials which need to be disposed 
of, they get information from the NRC or from the International 
Atomic Energy Agency about how to do that?
    Mr. Stratford. Well, when you talk about sustainability, 
what you are talking about is a country's ability to run a 
regulatory program, to run its own national registry, and to 
know how to go and pick things up safely and dispose of them 
safely. That is a matter of training, and nobody knows how to 
do that better in this country than the NRC.
    So should they go explain to other people how to have a 
successful program? In my judgment, yes, they should. Should 
they have the resources to do that? In my judgment, yes, they 
should.
    Senator Voinovich. Thank you.
    Chairman Akaka. Thank you very much.
    Mr. Stratford, in recognition of the lower level of safety 
in the design and operation of Soviet-designed nuclear power 
plants and later the need to secure radioactive sources in the 
former Soviet Union, the State Department created a stand-alone 
office to provide policy guidance to DOE and NRC in their 
assistance efforts to these countries. However, over the last 
year or so, that stand-alone office was folded back into your 
office.
    What are you doing to ensure that the profile of these 
efforts to secure high-risk radioactive sources remains high?
    Mr. Stratford. Originally, the Department created a Senior 
Coordinator for Reactor Safety Assistance whose job it was to 
work with the DOE and the NRC to be sure that their activities 
in the safety assistance area were fully coordinated. That 
later evolved into what you described, which is a Senior 
Coordinator for Safety with an office to handle a number of 
different safety issues, including sources.
    In the last reorganization, which combined the Arms Control 
Bureau and the Nonproliferation Bureau, that office was handed 
over to me and combined with my office, I suppose because 
management felt that all of the peaceful nuclear issues, 
including safety, should be handled under the same management.
    I have inherited all of those people, with the exception of 
the former office director, who is now working in Vienna for 
the IAEA. The person who was deputy director I have left in 
charge of all the people that she brought with her. I have 
canceled no slots. I am letting them devote the amount of time 
they need to the radioactive source issue, which is three 
people full-time and two people part-time. I do not plan to 
change that. I may look at the situation in terms of workloads 
in another year or so. But right now I think from a management 
point of view, the most important thing is to make those people 
feel comfortable, that they have not been relegated, that they 
have not been forgotten, that they still have a job to do and 
they are doing it for the person they were working for before.
    I think it is important to make them feel comfortable, I 
think it is important to let them do their job, and they are 
very highly qualified people, most of whom are Ph.D.s in hard 
science, which is a relatively rarity in the State Department.
    Chairman Akaka. Let me finally ask you, Mr. Aloise, for 
your view on the State Department organization.
    Mr. Aloise. Mr. Chairman, we really have not looked at that 
issue closely, so I cannot comment on that.
    Chairman Akaka. Well, I want to thank you. I have further 
questions that I will submit for the record, but I want to 
thank you so much. You have been helpful, and we are all trying 
to do the same thing. It is to help our country do the best we 
can to secure our Nation. And I want to thank all of you very 
much for your part in doing this, and I look forward to working 
with all of you in the future.
    Thank you.
    I would like to ask our second panel of witnesses to come 
forward. Testifying are Dr. Charles Ferguson, Science and 
Technology Fellow at the Council on Foreign Relations; Dr. 
Brian Dodd, President, Health Physics Society; and Joel 
Lubenau, a Certified Health Physicist and former adviser to NRC 
Commissioner Greta Dicus.
    As you know, it is the custom of this Subcommittee to swear 
in all witnesses, so I ask all of you to raise your right hand. 
Do you swear that the testimony you are about to give to this 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Mr. Dodd. I do.
    Mr. Ferguson. I do.
    Mr. Lubenau. I do.
    Chairman Akaka. Thank you. Mr. Dodd, will you please begin.

 TESTIMONY OF BRIAN DODD,\1\ PRESIDENT, HEALTH PHYSICS SOCIETY

    Mr. Dodd. Good afternoon. My name is Brian Dodd. I work as 
a consultant under BDConsulting, and I am also the President of 
the Health Physics Society. I want to thank you for holding 
this hearing and providing me with the opportunity to testify 
both personally and as the President of the Health Physics 
Society.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dodd appears in the Appendix on 
page 69.
---------------------------------------------------------------------------
    Information about the society as well as my background and 
experience with the IAEA and as a consultant are detailed in my 
written testimony. However, I do need to clarify that I cannot 
speak for the IAEA and that I am still bound by my 
confidentiality agreement with them.
    Having been involved in the field of safety and security of 
sources before, during, and after September 11, I feel that we 
have achieved a great deal in the years since. As Americans, I 
believe we can be proud of our involvement in helping to secure 
dangerous sources around the world. I have no doubt that we are 
safer and securer now than we were then. That being said, there 
is still much to be done.
    Our initial efforts have focused on the high-risk sources, 
but as these are being dealt with and as we begin to address 
those with lower risks, the problems grow because their numbers 
increase by orders of magnitude. The first phase has largely 
been characterized by short-term outside assistance. We now 
need to transition to the point where local internal controls 
take over.
    The issue of self-reliance and sustainability has always 
been a basic objective of the IAEA. Programs that help 
countries develop their laws and regulations to implement the 
Code of Conduct contribute significantly in this regard. 
However, there are some fundamental difficulties that are often 
overlooked.
    First is the issue of priority. Bluntly, these countries do 
not see themselves as targets of terrorist activity using 
radioactive sources and have much more basic human needs to 
focus on. Should the government of a poor country spend its 
limited resources on source problems or provide running water 
and sanitation to a village? It is not that they do not care 
about RDDs, but they are pretty far down their list. To a 
certain extent, what we are trying to do is to impose our 
priorities and values on other countries. Sometimes we can gain 
short-term external conformance with our carrots and sticks, 
but clearly it is better that they have an internal will to 
address the issues.
    Second, there is the problem of personnel. The IAEA has 
been attempting to grow national expertise as part of its 
sustainability effort. However, it seems that it is taking much 
longer than anyone would have predicted. One of the major 
reasons is that as soon as a person becomes trained, he or she 
then leaves for a ``better'' position--often in another country 
where salaries and living conditions are much more desirable. 
It requires a high degree of self-actualization for a highly 
qualified person to continue to work in appalling conditions 
with little official government support.
    I believe that these issues of priority and personnel are 
the major impediment to building the national infrastructure 
and sustainability necessary to achieve the ongoing level of 
safety and security that we desire. However, we should not stop 
trying.
    In fact, one of the Health Physics Society's efforts to 
address the personnel problem is our Radiation Safety Without 
Borders program. As a society of professionals, I think the 
best thing we can do to help build infrastructure and 
sustainability is to help our peers in developing countries. In 
the revitalized RSWB program, a Health Physics Society chapter 
links itself to a country, much like the sister city approach--
for life. The chapter members will get to know the HPs in that 
country and how best to support them.
    The countries we are pairing with are those without a 
professional radiation safety society, with the ultimate 
objective of helping them develop their own. This will then 
become affiliated with the International Radiation Protection 
Association, perhaps via the stepping stone of forming a 
foreign HPS chapter. The desire is to help our fellow HPs get 
the same level of support that we receive from belonging to a 
high-quality professional organization.
    This program has the full support of the IAEA, the IRPA, 
and has the full knowledge of the State Department.
    It would be remiss of me not to mention the fact that the 
HPS has a position paper on radioactive source control. In 
particular, I would like to point out our recommendations 
regarding sufficient funding, No. 8, and making it an 
administrative mission to recover sources abroad, No. 16, 
instead of it being an ad hoc process.
    I hope you find these remarks helpful, and once again, I 
thank you for the opportunity to provide them in this hearing. 
I shall be pleased to answer questions as you desire.
    Chairman Akaka. Thank you very much, Mr. Dodd. Mr. 
Ferguson.

  TESTIMONY OF CHARLES D. FERGUSON,\1\ FELLOW FOR SCIENCE AND 
            TECHNOLOGY, COUNCIL ON FOREIGN RELATIONS

    Mr. Ferguson. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ferguson appears in the Appendix 
on page 74.
---------------------------------------------------------------------------
    Several observations follow from an analysis of the 
radiological terrorism threat. First, we have to learn to live 
with a certain level of risk. We cannot and should not try to 
make the risk of radiological terrorism zero. Millions of 
people have derived great benefits from the use of radioactive 
sources. We have to learn to use radioactive sources more 
smartly, safely, and securely to reduce the risk as low as 
possible.
    Developing a safety and security culture takes many years. 
That is why we need a long-term sustainability plan that 
involves all countries. Governments, the radioactive source 
industry, and users of radioactive sources need to take 
ownership of the safety and security problems. This endeavor 
will require long-term concentrated effort to educate users, 
establish regulatory infrastructures where needed, improve 
existing regulatory agencies, and create public-private 
partnerships with industry. A public-private partnership would 
work toward finding alternatives to potent radioactive sources 
and replacing easily dispersible radioactive materials with 
hard-to-disperse materials.
    Users should have the opportunity to make an informed 
decision about whether to buy a non-radioactive alternative 
product or radioactive source. The purchase decision should 
include an assessment of the safety and security cost as well 
as the efficacy of the alternative product as compared to 
traditional radioactive sources.
    A number of applications have already substituted in non-
radioactive alternatives, but more could be done in this area. 
The National Nuclear Security Administration, in particular, 
has a major role to play here. NNSA already has established a 
precedent in the nuclear security program to replace nuclear-
weapons-usable highly enriched uranium with non-weapons-usable 
low-enriched uranium in research reactors. Similarly, I 
recommend that NNSA be given the mission and mandate to work 
with industry to identify, research, and develop suitable 
alternative replacement products for potent radioactive sources 
as well as to research, develop, and make available less 
dispersible radioactive materials in the marketplace.
    Unlike the several-billion-dollar nuclear security program 
the United States is funding along with international partners, 
a multi-billion-dollar program is not required to significantly 
reduce the radiological terrorism threat. With relatively 
modest amounts of funding over the past 4 to 5 years, NNSA has 
accomplished a substantial amount of security work, with much 
of that work being done in Russia as well as in 40 more 
countries.
    The NNSA program has provided the needed jump-start for 
many countries to improve their radioactive source security. 
What is needed now is development of a long-term sustainable 
program which can come about only with the full participation 
of all countries. For starters, I would recommend that the G-8 
countries begin to identify how much money is required over the 
coming years to develop a sustainable program. Similar to what 
the United States did in 2002 at the G-8 Summit in starting the 
Global Partnership to deal with nuclear security and other 
weapons of mass destruction, I believe we have the opportunity 
to have a parallel program with radioactive source security. It 
will cost far less money, but I think we have yet to establish 
such a program among the G-8 countries, who are the major 
manufacturers of radioactive sources.
    I would like to just briefly touch on in my remaining time 
some of the other recommendations from my written testimony.
    Congress should require NNSA, the NRC, and other relevant 
government agencies to perform an urgent, comprehensive risk 
assessment of all types of radioactive sources. This assessment 
should be updated at least every 2 years and should evaluate 
the dynamical nature of the terrorism threat.
    A global problem requires a global solution. I commend 
Congress for giving NNSA, in October 2006, the mandate to seek 
and obtain international, monetary, and other contributions to 
counter the radiological threat. But as I said a little while 
ago, I think the United States can do more and should leverage 
international donations to help create a long-term sustainable 
program. Other countries should not continue to look to the 
United States to provide the bulk of these resources and money 
to develop these programs. It is everyone's responsibility.
    The United States and partner governments should form 
public-private partnerships within industry to work vigorously 
toward phasing our production and use of easily dispersible 
radioactive materials.
    The radioactive source industry and the user community 
should internalize as many of the safety, security, and 
disposal costs in the price of commercial radioactive sources.
    And, finally, the Nuclear Regulatory Commission and 
regulatory agencies in other countries should encourage users 
to make an informed decision about whether to purchase a 
radioactive source or a non-radioactive alternative product. 
Such a decision should factor in all relevant costs, including 
security.
    Thank you, Mr. Chairman, for the opportunity to offer 
guidance on this important issue.
    Chairman Akaka. Thank you very much, Mr. Ferguson. Mr. 
Lubenau.

  TESTIMONY OF JOEL O. LUBENAU,\1\ CERTIFIED HEALTH PHYSICIST

    Mr. Lubenau. Mr. Chairman, thank you for your continuing 
interest in this subject, and also thank you for the 
opportunity to offer comments on this subject. My submitted 
testimony includes a brief historical overview of radioactive 
source safety and security in the submittal, and it should be 
noted that, with respect to history, concerns about 
accountability and control of radioactive sources pre-September 
11. The submittal also discusses the setting of priorities and 
the need for long-term measures. With these considerations as 
background, the following recommendations are offered:
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lubenau appears in the Appendix 
on page 80.
---------------------------------------------------------------------------
    One, the radioisotope thermal generators, the RTGs, in the 
former Soviet Union that are disused, have been abandoned, or 
lack security and continue to need priority attention. Priority 
attention also needs to be given to locating and securing 
mobile seed irradiators in the former Soviet Union. That said, 
other high-risk and lower-risk sources will also need 
attention.
    Two, improving security of radioactive waste repositories 
should receive priority attention. To not do so simply 
continues the risk when recovered radioactive sources are 
transferred to an unsecured waste repository.
    Three, DOE's program to recover domestic radioactive 
sources posing safety and security risks is greatly needed. 
Over 14,000 sources have been recovered in the United States to 
date. Another 31,000 are projected to need recovery between now 
and 2021. Funding shortfalls have historically impacted this 
important program that does not include an overseas mission as 
well. Future competing, non-predictable priorities within the 
DOE should not be allowed to adversely affect this program, 
either domestically or internationally.
    Four, development of national regulatory infrastructures 
must include development of adequate continuing funding sources 
to sustain them. The NRC's experience and that of the agreement 
States is a resource that should be utilized. To this end, 
neither NRC license fees nor interagency fund transfers should 
be utilized. Instead, Congress should directly fund NRC work in 
this area using general revenues.
    Last, long-term measures must become an integral part of 
national and international programs to improve radioactive 
source security. The lack of viable, affordable disposal paths 
for unused and unwanted sources has led to unplanned storage 
that increases their vulnerability to loss and theft. In the 
short-term, programs such as the DOE off-site source recovery 
program help to address this. In the long term, better 
solutions must be found for low-level radioactive waste 
disposal.
    We need to use radioactive sources more wisely than in the 
past. The IAEA, the National Academy of Sciences, the National 
Council on Radiation Protection and Measurements, the Health 
Physics Society, and numerous experts recommend developing and 
using safer chemical and physical forms of radioactive material 
in sources and alternatives to radioactive sources. These 
measures should be vigorously pursued. Public-private 
partnerships should be explored to advance these measures.
    Mr. Chairman, again, thank you for the opportunity to 
testify on this important subject. I will be glad to answer any 
questions that you and the Subcommittee Members may have.
    Chairman Akaka. Thank you very much, Mr. Lubenau. I am so 
glad to see my friend Senator Carper here joining me, and I 
will ask three questions, and then I will call on you.
    I also note that Mr. Bieniawski has remained here, and I 
want to commend you for spending the time here.
    Dr. Dodd, you have testified that you are working to 
revitalize the Radiation Safety Without Borders program. How 
has this program been funded in the past and how do you plan to 
fund it in the future?
    Mr. Dodd. Yes, Mr. Chairman, we had some funds from the 
Department of Justice. However, the emphasis on the program was 
more related to nonproliferation objectives, very much more of 
a review of some of the various countries' Radiation Safety 
Regulatory programs. In my mind, the program was more 
determined by those considerations rather than the 
professional-to-professional considerations. My view is now 
that we need to help the people, the things that we were trying 
to do are better done by a government and government agencies. 
As a professional society, I believe the best thing we can do 
is help the people in a peer-to-peer type relationship with 
other professionals.
    It does not require a lot of funding. Frankly, we do not 
have nor asked for any additional funding from anyone to do 
this program. The idea is that each of the chapters will pair 
with the countries, and determine how best they can help that 
country. It might just be at the end of a phone call to provide 
some advice. Many of the chapters have a few thousand dollars 
perhaps to bring one of the key members of the regulatory 
agency from that country to the United States to a Health 
Physics Society meeting to see how to do professional society 
business.
    Certainly if we had some funding, we could do more country-
to-country visits, but I think almost everything else we can do 
without additional funding. A lot of it can be done 
electronically, through telephone and e-mail.
    Chairman Akaka. Mr. Dodd, GAO has found that hundreds of 
radioisotope thermal generators remain unsecured in Russia.
    Mr. Dodd. Yes.
    Chairman Akaka. To your knowledge, has the IAEA been 
involved in securing such large, dangerous sources? And if so, 
why do you think so many of them remain unsecured?
    Mr. Dodd. Well, the reason that we have RTGs is to provide 
electrical power in remote regions where there is none. So to 
start off with, they are in places in the world which are very 
remote. There are approximately 900 of them along the northern 
navigation route along the Arctic Circle north of Russia and so 
on. So they are in very remote, inhospitable places in the 
first place because that is what they do well. They provide 
power for such things as navigation beacons.
    The agency has certainly been working with many countries 
to improve the situation with regard to RTGs. In particular, 
Norway and Canada have helped. Norway, I believe, has helped 
recover probably on the order of several dozen RTGs back to 
MAYAK for reprocessing.
    Chairman Akaka. Thank you. Let me call on Senator Carper 
for a statement or questions that he has.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. What I would like to ask you to do is 
just--I do not care who goes first, second, or third, but I 
would like for each of you to respond to a couple of questions.
    I think a couple of you cited sustainability as one of the 
major problems with securing radioactive sources in other 
countries. For example, poor countries have to choose between 
some basic needs--health care--as opposed to protecting 
radioactive sources. And, in addition, some poor countries have 
problems retaining personnel that have been trained to secure 
radioactive sources because they leave, I guess, for better 
positions once they are trained.
    What do you see as possible solutions that the United 
States alone and in conjunction with the international 
community could engage in to address these problems? I think 
you have spoken to this already in your testimonies, but I am 
going to ask you to take another shot at it, if you would, 
please.
    Whoever wants to go first. But I would appreciate a 
response from each of you.
    Mr. Lubenau. Senator, thank you. I referred in my testimony 
to using the agreement States as a resource in this area.
    Senator Carper. I am sorry. Say that again?
    Mr. Lubenau. In my testimony, I suggest that using the 
agreement States--these are the States that have agreements 
with the NRC to regulate radioactive material--as a model 
because they have had funding problems in the past. And they 
are also smaller in size and thus more comparable to many of 
these countries. They have more in the way of shared experience 
in this area.
    But one common theme that has helped the States has been 
the collection of user fees, which is a large part of the 
support of the NRC program. And this would go a long way, I 
think, to solving funding problems. As Dr. Dodd and others have 
commented, we cannot keep handing out goodies. They have got to 
develop their own resources, not only in terms of training 
people but also retaining them. That takes providing decent 
salaries, and to that you need to have a fund available that 
can be depended upon to pay the salaries and also pay for the 
equipment and so on that will be required.
    Senator Carper. Thank you. Dr. Ferguson.
    Mr. Ferguson. Yes, Senator. I think my answer is threefold.
    I think we can draw on the IAEA's program, the model 
project that has been around since the mid-1990s. They have 
worked with, I think, close to almost 100 countries now trying 
to improve the regulatory infrastructure. As I said in my oral 
remarks, it takes many years to develop a safety and security 
culture. You cannot turn around on a dime. But I think much 
more work can be done there. The IAEA has been cash-strapped. 
The U.S. Government and other governments have had a policy to 
keep the IAEA funding pretty much flat, and I think we need 
to--those countries that benefit the most from using 
radioactive sources and nuclear technology should contribute 
the most to the IAEA's efforts to control those technologies. 
So that is one part of the answer.
    I think we also need to think through future use of 
radioactive sources. I said in my oral remarks that we need to 
think about alternatives to radioactive sources, and this is 
not any kind of anti-nuclear statement. There have been many 
applications--and Mr. Lubenau knows this much better than I 
do--that many applications have substituted in nonradioactive 
products that do the same job, but they do not have the safety 
and security risk that radioactive materials have. I do not 
think we can do this across the board. We need to think very 
carefully about applications and which ones can use 
substitutes. I think much more work can be done in research and 
development of those substitutes, and I would recommend that 
the Department of Energy and NNSA have a major role to play 
here. They have a lot of technical expertise at the National 
Laboratories, and I think they can be given the mission and the 
mandate to focus on the R&D question like they have been doing 
in terms of converting research reactors into using non-
weapons-usable type of uranium. They have not had that mandate 
yet, and I would recommend that they get that.
    And then, finally, I want to just second what Mr. Lubenau 
said about user fees. The United States has been assessing user 
fees to try to take account of some of these costs, and I think 
we need to encourage other countries to continue to develop 
user fees as well.
    Senator Carper. My time has expired, but, Dr. Dodd, would 
you just take a minute as well and respond to the question? 
Thank you.
    Mr. Dodd. Yes. Very quickly, priorities--they are both big, 
difficult issues, which is why I raised them in the first 
place. It is interesting that the countries which have had an 
accident with a radioactive source, priorities are not a 
problem. It is nationally embarrassing for them to be seen as 
deficient, and they have put the resources into it.
    I hate to say that we should have an accident in every 
country, but that solves the problem to a certain extent.
    One of the issues, I think, is getting countries committed 
to the Code of Conduct because then that gives them the 
national impetus and desire to make that international 
commitment.
    When I was at the IAEA, one of the things we tried to do 
was to make it legally binding for that very purpose so that it 
would not be an option, that they would have to prioritize is. 
That, too, I think helps the personnel problem, that if the 
people have the backing and the will from the government to 
deal with the issue, then there is a certain amount of pride 
and respect that goes into doing that. And that is part of what 
our Radiation Safety Without Borders program is trying to do, 
too, is to provide the status to the professional to deal with 
the issue.
    But the personnel one is a very difficult one that has been 
ongoing for many years in lots of areas the agency is working 
on. I do not have any easy solutions, I am afraid.
    Senator Carper. All right. Thank you, sir. Thank you all.
    Thanks, Mr. Chairman.
    Chairman Akaka. Thank you. If you do not mind, we will go 
into a second round here.
    Dr. Ferguson, do you believe that DHS is taking the RDD 
threat seriously?
    Mr. Ferguson. Mr. Chairman, if you are referring to the 
Department of Homeland Security, particularly their Domestic 
Nuclear Detection Office program, my concern is they have 
competing priorities. I think they are trying to do too much 
for the technologies they have right now. They are trying to 
solve the nuclear bomb problem and the dirty bomb problem. My 
understanding as a physicist, as a scientist, looking at the 
radiation detection capability today that they have, I would 
recommend to them to prioritize the dirty bomb problem. It is 
far more likely--I agree with everything you said in your 
opening statement, sir, that it is far more likely that a dirty 
bomb would occur, even though it is not nearly as damaging as a 
nuclear bomb. But the thing with our technologies now is we can 
detect the highly radioactive materials, and it is very 
difficult to detect the nuclear materials that would go into an 
actual nuclear weapon. So I would recommend shifting priorities 
at DHS in that program.
    Chairman Akaka. Dr. Ferguson, what, in your opinion, is a 
greater threat to the United States: A terrorist organization 
acquiring highly enriched uranium or plutonium, or stealing a 
radioactive source?
    Mr. Ferguson. Mr. Chairman, it is really hard to decide 
between the two. In my written comments, I said experts agree 
in terms of the likelihood and the consequences, and I think 
there is this tension right now--we see it being played out in 
the government--how we should devote our resources to dealing 
with these two very important threats.
    I do not think it is either/or. I think we need to try to 
find a way to tackle both of these threats. Fortunately, the 
dirty bomb threat requires far less money to deal with than the 
nuclear bomb threat.
    Chairman Akaka. Yes. Do you believe that the threat of a 
dirty bomb attack in the United States is greater or lower than 
the time just after the September 11 attack?
    Mr. Ferguson. Mr. Chairman, I think a dirty bomb threat is, 
I think, greater post-September 11 than it was pre-September 
11, although we did see evidence from al Qaeda pre-September 11 
that they were trying to get their hands on material for a 
nuclear bomb or a dirty bomb. But I think we have seen just a 
recent upsurge of criminal and terrorist interest in the 
radiological terrorism threat.
    Chairman Akaka. Mr. Lubenau, based on your knowledge of the 
Nuclear Regulatory Commission, do you believe that the NRC has 
adequate resources to help secure radioactive sources 
internationally?
    Mr. Lubenau. Mr. Chairman, the resources may involve 
funding. Resources include staffing. It also involves the 
ability to engage in travel if NCR is going to do international 
work.
    I think the NRC has done its best to obtain the necessary 
resources. That has been my experience when I was there. But 
they are also very mindful of overall Federal budget 
constraints. They are also mindful of the fact that work in 
this area does not directly relate to the regulation of the 
users, and the users' fees to a large part in the past have had 
to be used for this purpose.
    That is why, for example, the direct funding of additional 
work by the NRC using general revenues presumably is a better 
alternative than either using the user fees or seeking those 
funds from other agencies. To me that is the key issue. Once 
the funding is made available, then it is a matter of deciding 
where to apportion the funding for the resources that are 
needed.
    Chairman Akaka. I was asking about international funding. 
Do you believe the NRC has been effective in securing sources 
internationally?
    Mr. Lubenau. The NRC is not directly involved in that. What 
they have done and continue to do is to work with the IAEA, the 
State Department, and the DOE to support programs--the IAEA 
programs, the DOE programs--to recover and secure radioactive 
sources. But the NRC does not directly go out and recover the 
sources, nor does it operate or provide equipment, for example, 
to secure the repositories where the sources are taken to. That 
is a responsibility that lies with the host governments. But in 
terms of direct engagement, that is not an NRC function--at 
least in my experience when I was there.
    Chairman Akaka. Mr. Lubenau, do you believe that the NRC 
has been effective--I have asked you that. Do you believe that 
the NRC is well suited to help other countries strengthen 
control over sources?
    Mr. Lubenau. I think the testimony before by Mr. Stratford 
that the NRC is recognized as the premier regulatory agency in 
the world, I would agree with that assessment. And it does 
serve as a model for other countries, and I think they are well 
positioned to provide assistance or advice to other countries 
in developing their programs.
    Chairman Akaka. Do you believe that the Commission has made 
this initiative a priority and afforded it adequate resources?
    Mr. Lubenau. To the extent--and I realize I am throwing 
this back to the Congress--to the extent that funds have been 
made available by Congress, my answer would be yes.
    Chairman Akaka. Well, I thank you all for your responses. 
Especially I thank those who have traveled from out of town to 
come here for this hearing.
    Mr. Lubenau. I do not travel as far as you, though. 
[Laughter.]
    Chairman Akaka. Your testimony, again, has been very 
informative and in a sense somewhat disturbing. It has also 
served to remind all of us that the threat of dirty bombs has 
not gone away. This is the disturbing part. These sources were 
not adequately secured, as you know, continue to be a risk to 
the safety and security of this country, and also to the rest 
of the world. It is inexcusable that sufficient funding for DOE 
and NRC activities to secure radioactive sources 
internationally is not being made available. Al Qaeda's desire 
to acquire a radioactive source and to fashion it into a dirty 
bomb to inflict destruction upon the American people, or the 
people of any country, has not waned and has not dissipated. In 
response, our efforts cannot wane. Attention to these critical 
efforts cannot be diverted either.
    It is, therefore, my intention, as a member of the Energy 
Committee as well as Chair of this Subcommittee, to press for 
sufficient funding for both DOE and NRC to continue their 
valuable efforts to help other countries secure radioactive 
sources. I will also continue to highlight the need to secure 
these sources both here in the United States and around the 
world.
    Again, I thank you very much for being here and for 
providing the information you have. The hearing record will be 
open for 1 week for additional statements or questions that 
other Members may have.
    Again, thank you very much, and this hearing is adjourned.
    [Whereupon, at 4:12 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 34410.001

[GRAPHIC] [TIFF OMITTED] 34410.002

[GRAPHIC] [TIFF OMITTED] 34410.003

[GRAPHIC] [TIFF OMITTED] 34410.004

[GRAPHIC] [TIFF OMITTED] 34410.005

[GRAPHIC] [TIFF OMITTED] 34410.006

[GRAPHIC] [TIFF OMITTED] 34410.007

[GRAPHIC] [TIFF OMITTED] 34410.008

[GRAPHIC] [TIFF OMITTED] 34410.009

[GRAPHIC] [TIFF OMITTED] 34410.010

[GRAPHIC] [TIFF OMITTED] 34410.011

[GRAPHIC] [TIFF OMITTED] 34410.012

[GRAPHIC] [TIFF OMITTED] 34410.013

[GRAPHIC] [TIFF OMITTED] 34410.014

[GRAPHIC] [TIFF OMITTED] 34410.015

[GRAPHIC] [TIFF OMITTED] 34410.016

[GRAPHIC] [TIFF OMITTED] 34410.017

[GRAPHIC] [TIFF OMITTED] 34410.018

[GRAPHIC] [TIFF OMITTED] 34410.019

[GRAPHIC] [TIFF OMITTED] 34410.020

[GRAPHIC] [TIFF OMITTED] 34410.021

[GRAPHIC] [TIFF OMITTED] 34410.022

[GRAPHIC] [TIFF OMITTED] 34410.023

[GRAPHIC] [TIFF OMITTED] 34410.024

[GRAPHIC] [TIFF OMITTED] 34410.025

[GRAPHIC] [TIFF OMITTED] 34410.026

[GRAPHIC] [TIFF OMITTED] 34410.027

[GRAPHIC] [TIFF OMITTED] 34410.028

[GRAPHIC] [TIFF OMITTED] 34410.029

[GRAPHIC] [TIFF OMITTED] 34410.030

[GRAPHIC] [TIFF OMITTED] 34410.031

[GRAPHIC] [TIFF OMITTED] 34410.032

[GRAPHIC] [TIFF OMITTED] 34410.033

[GRAPHIC] [TIFF OMITTED] 34410.034

[GRAPHIC] [TIFF OMITTED] 34410.035

[GRAPHIC] [TIFF OMITTED] 34410.036

[GRAPHIC] [TIFF OMITTED] 34410.037

[GRAPHIC] [TIFF OMITTED] 34410.038

[GRAPHIC] [TIFF OMITTED] 34410.039

[GRAPHIC] [TIFF OMITTED] 34410.040

[GRAPHIC] [TIFF OMITTED] 34410.041

[GRAPHIC] [TIFF OMITTED] 34410.042

[GRAPHIC] [TIFF OMITTED] 34410.043

[GRAPHIC] [TIFF OMITTED] 34410.044

[GRAPHIC] [TIFF OMITTED] 34410.045

[GRAPHIC] [TIFF OMITTED] 34410.046

[GRAPHIC] [TIFF OMITTED] 34410.047

[GRAPHIC] [TIFF OMITTED] 34410.048

[GRAPHIC] [TIFF OMITTED] 34410.049

[GRAPHIC] [TIFF OMITTED] 34410.050

[GRAPHIC] [TIFF OMITTED] 34410.051

[GRAPHIC] [TIFF OMITTED] 34410.052

[GRAPHIC] [TIFF OMITTED] 34410.053

[GRAPHIC] [TIFF OMITTED] 34410.054

[GRAPHIC] [TIFF OMITTED] 34410.055

[GRAPHIC] [TIFF OMITTED] 34410.056

[GRAPHIC] [TIFF OMITTED] 34410.057

[GRAPHIC] [TIFF OMITTED] 34410.058

[GRAPHIC] [TIFF OMITTED] 34410.059

[GRAPHIC] [TIFF OMITTED] 34410.060

[GRAPHIC] [TIFF OMITTED] 34410.061

[GRAPHIC] [TIFF OMITTED] 34410.062

[GRAPHIC] [TIFF OMITTED] 34410.063

[GRAPHIC] [TIFF OMITTED] 34410.064

[GRAPHIC] [TIFF OMITTED] 34410.065

[GRAPHIC] [TIFF OMITTED] 34410.066

[GRAPHIC] [TIFF OMITTED] 34410.067

[GRAPHIC] [TIFF OMITTED] 34410.068

[GRAPHIC] [TIFF OMITTED] 34410.069

[GRAPHIC] [TIFF OMITTED] 34410.070

[GRAPHIC] [TIFF OMITTED] 34410.073

[GRAPHIC] [TIFF OMITTED] 34410.074

[GRAPHIC] [TIFF OMITTED] 34410.075

[GRAPHIC] [TIFF OMITTED] 34410.076

[GRAPHIC] [TIFF OMITTED] 34410.077

[GRAPHIC] [TIFF OMITTED] 34410.078

[GRAPHIC] [TIFF OMITTED] 34410.079

[GRAPHIC] [TIFF OMITTED] 34410.080

[GRAPHIC] [TIFF OMITTED] 34410.081

[GRAPHIC] [TIFF OMITTED] 34410.082

[GRAPHIC] [TIFF OMITTED] 34410.083

[GRAPHIC] [TIFF OMITTED] 34410.084

[GRAPHIC] [TIFF OMITTED] 34410.085

[GRAPHIC] [TIFF OMITTED] 34410.086

[GRAPHIC] [TIFF OMITTED] 34410.087

[GRAPHIC] [TIFF OMITTED] 34410.088

[GRAPHIC] [TIFF OMITTED] 34410.089

[GRAPHIC] [TIFF OMITTED] 34410.090

[GRAPHIC] [TIFF OMITTED] 34410.091

[GRAPHIC] [TIFF OMITTED] 34410.092

[GRAPHIC] [TIFF OMITTED] 34410.093

[GRAPHIC] [TIFF OMITTED] 34410.094

[GRAPHIC] [TIFF OMITTED] 34410.095

[GRAPHIC] [TIFF OMITTED] 34410.096

[GRAPHIC] [TIFF OMITTED] 34410.097

[GRAPHIC] [TIFF OMITTED] 34410.098

[GRAPHIC] [TIFF OMITTED] 34410.099

[GRAPHIC] [TIFF OMITTED] 34410.100

[GRAPHIC] [TIFF OMITTED] 34410.101

[GRAPHIC] [TIFF OMITTED] 34410.102

[GRAPHIC] [TIFF OMITTED] 34410.103

[GRAPHIC] [TIFF OMITTED] 34410.104

[GRAPHIC] [TIFF OMITTED] 34410.105

[GRAPHIC] [TIFF OMITTED] 34410.106

[GRAPHIC] [TIFF OMITTED] 34410.107

[GRAPHIC] [TIFF OMITTED] 34410.108

[GRAPHIC] [TIFF OMITTED] 34410.109

[GRAPHIC] [TIFF OMITTED] 34410.110

[GRAPHIC] [TIFF OMITTED] 34410.111

[GRAPHIC] [TIFF OMITTED] 34410.112

[GRAPHIC] [TIFF OMITTED] 34410.113

[GRAPHIC] [TIFF OMITTED] 34410.114

[GRAPHIC] [TIFF OMITTED] 34410.115

[GRAPHIC] [TIFF OMITTED] 34410.116

[GRAPHIC] [TIFF OMITTED] 34410.117

[GRAPHIC] [TIFF OMITTED] 34410.118

[GRAPHIC] [TIFF OMITTED] 34410.119

[GRAPHIC] [TIFF OMITTED] 34410.120

[GRAPHIC] [TIFF OMITTED] 34410.121

[GRAPHIC] [TIFF OMITTED] 34410.122

[GRAPHIC] [TIFF OMITTED] 34410.123

[GRAPHIC] [TIFF OMITTED] 34410.124

[GRAPHIC] [TIFF OMITTED] 34410.125

[GRAPHIC] [TIFF OMITTED] 34410.126

[GRAPHIC] [TIFF OMITTED] 34410.127

[GRAPHIC] [TIFF OMITTED] 34410.128

[GRAPHIC] [TIFF OMITTED] 34410.129

[GRAPHIC] [TIFF OMITTED] 34410.130

[GRAPHIC] [TIFF OMITTED] 34410.131

[GRAPHIC] [TIFF OMITTED] 34410.132

                                 <all>

</pre></body></html>
